            OVERVIEW AND
   ASSESSMENT OF VULNERABILITIES
    IN THE DEPARTMENT OF LABOR’S
ALIEN LABOR CERTIFICATION PROGRAMS




                       Office of Inspector General
                       Office of Audit
                       Report No. 06-03-007-03-321
                       Date Issued: September 30, 2003
                                      TABLE OF CONTENTS



Executive Summary ..............................................................................................1

Chapter 1: Permanent Alien Labor Certification Program .....................................3

Chapter 2: Temporary H-1B Program For Employment Of Nonimmigrant Aliens
           In Specialty Occupations Or As Fashion Models..............................11

Chapter 3: H-2A Program For The Temporary Employment Of Nonimmigrant
           Alien Agricultural Workers ................................................................18

Chapter 4: H-2B Temporary Program For The Employment Of Nonimmigrant
           Alien Nonagricultural Workers ..............................................................24

Chapter 5: D-1 Crewmembers Certification Program.........................................27

Chapter 6: H-1C Nurses in Disadvantaged Areas..............................................28

Appendices:

1    Summary of Foreign Labor Certification Processes ......................................29

2    Summary of Vulnerabilities............................................................................31

3    Abbreviations ................................................................................................35

4    Background ...................................................................................................36

5    Objective, Scope, and Methodology..............................................................37

6    Sample Forms...............................................................................................38




                                                         ii
                               EXECUTIVE SUMMARY

The Office of Inspector General (OIG) prepared an overview of four of the six
Department of Labor (DOL) foreign labor certification programs to summarize
what vulnerabilities exist in those programs. We did not review the D-1
(Crewmembers) or H-1C (Nurses in Disadvantaged Areas) certification programs
although we have provided a short synopsis of those programs in chapters 5 and
6, respectively.

       Permanent Alien Labor Certification Program (See chapter 1.)

The permanent foreign labor certification (FLC) program allows employers to hire
foreign workers on a permanent basis only when sufficient numbers of able,
willing, and qualified U.S. workers are not available to perform the job.

The program today is currently operating under the same procedures that were in
existence in 1996 when the OIG conducted its last audit of this program;
consequently the vulnerabilities then identified continue to exist. In 1996 we
reported the following problems with the permanent foreign labor certification
program:

   !"poor to nonexistent labor market tests performed at the time the alien
     actually adjusts to permanent resident status (i.e., obtains a “green card,”
     a visa to work in the U.S. as a permanent resident);

   !"three-fourths of the aliens were already working for the petitioning
     employer, indicating the jobs were not available if a qualified U.S. worker
     had been found; and

   !"over one-third of the aliens either never worked for the sponsoring
     employer after adjusting to permanent resident status or left employment
     within 1 year of adjusting status.

A new Employment and Training Administration (ETA)-proposed system to be
implemented soon will significantly speed up the time required to process
applications. However the system will eliminate most, if not all, human
intervention or review/screening of 80 percent of applications received. In our
opinion, the system will result in reduced controls and an increased risk of fraud.

    H-1B Program: Temporary Employment of Nonimmigrant Aliens In
       Specialty Occupations or As Fashion Models (See chapter 2.)

The H-1B visa program for the temporary employment of non-immigrants in “specialty
occupations” and as fashion models currently allows 195,000 aliens per year to be
hired into jobs for which qualified U.S. workers might be available. The H-1B is a
“rubber stamp” program because the applicable regulation requires ETA to approve
the labor condition application (LCA) if the form is complete and free of obvious errors.
Consequently, employers file applications on-line and the applications are
                                         1
electronically screened, and, if the application is complete and free of obvious errors,
the application is electronically approved within minutes and returned to the employer.

In our opinion, DOL adds nothing substantial to the H-1B program. It would be more
efficient if the employers filed their applications directly to the Bureau of Citizenship
and Immigration Services (BCIS)1, for visa approval.

      H-2A Program: Seasonal or Temporary Employment of Nonimmigrant
                  Alien Agricultural Workers (See chapter 3.)

Before the BCIS can approve an employer’s petition for temporary or seasonal
agricultural workers, the employer must file an application with the DOL, ETA,
assuring that sufficient U.S. workers who are able, willing and qualified are not
available, and that employing aliens will not adversely affect the wages and
working conditions of similarly employed U.S. workers.

In March 1998, the OIG reported several significant program problems in addition
to opportunities to enhance the overall program operation. However, many if not
all of the vulnerabilities still exist. The audit concluded that the certification
process is ineffective, involves extensive administrative requirements, and
involves paperwork and regulations that often seem to dissociate DOL’s mandate
to provide assurances that U.S. worker’s jobs will be protected. The DOL’s
division of responsibilities, with ETA’s handling compliance with certification
requirements and the Employment Standards Administration’s (ESA) enforcing
the terms of work contracts, prevents cohesive enforcement of program
requirements and contributes to uncertainties over responsibilities. This division
of responsibilities results in confusion, inefficiencies, and ineffectiveness.

          H-2B Program: Temporary Employment of Nonimmigrant Alien
                    Nonagricultural Workers (See chapter 4.)

The H-2B temporary nonagricultural program permits employers to hire foreign
workers for a one-time job or a job of a seasonal, peak load, or intermittent need, that
is less than 1 year in length, if no qualified and willing U.S. workers are available.
The H-2B temporary program is time-consuming for DOL and the State
Workforce Agencies (SWA). Although DOL must certify or deny the employer’s
applications for the H-2B program within 30 days, ETA’s certification or denial is
only advisory to the BCIS. The employer may appeal DOL’s application denials
directly to BCIS with the petition for the H-2B visa. BCIS can accept or reject
DOL’s denials. In our opinion, the priority DOL must put on H-2B applications
because of the 30-day requirement increases the vulnerabilities in other
programs where DOL has a more authoritative role.

                                 ******************
We provided a draft copy of this overview to the Employment and Training
Administration and invited comments. ETA did not provide comments.

1
    Formerly Immigration and Naturalization Service.
                                                 2
                           CHAPTER 1:
          PERMANENT ALIEN LABOR CERTIFICATION PROGRAM


The permanent FLC program allows employers to hire foreign workers on a
permanent basis. The program is based on the premise that employers will hire
foreign workers only when sufficient numbers of U.S. workers who are able,
willing, and qualified to perform the jobs are not available for the occupations in
the areas of intended employment. The program is intended to ensure that
employment of a foreign worker on a permanent basis will not adversely affect
the wages and working conditions of U.S. workers that are similarly employed.

Before a U.S. employer can submit an immigration petition to the BCIS, the
employer must obtain an approved “Application for Alien Employment
Certification” (Form ETA 750) from the DOL’s ETA. The DOL must certify to the
BCIS that no qualified U.S. workers are available and willing to accept the job at
the prevailing wage for that occupation in the area of intended employment.

The DOL, in concert with the local SWA, processes the ETA 750 applications.
The date the application is filed with the SWA is the application’s “priority date.”
After DOL approves the ETA 750, the employer submits the approved ETA 750
to the BCIS service center with an “Immigrant Petition for Alien Worker”
(Form I-140). The priority date is the date the BCIS and Department of State use
for processing petitions and visa applications, respectively.

Currently, employers use one of two methods to request approval of the
permanent alien labor certification: the DOL/SWA “basic,” or traditional, process;
and, the “reduction in recruitment” (RIR) process. Regardless of the method
followed, the employer must comply with the qualifying criteria:

   !"the employer must hire the foreign worker as a full-time employee;

   !"the job opening must be bona fide;

   !"the job requirements must adhere to what is customarily required for the
     occupation in the U.S. and may not be tailored to the worker’s
     qualifications;

   !"the employer must document that the job opportunity has been and is
     being described without unduly restrictive job requirements, unless
     adequately documented as arising from business necessity; and

   !"the employer must pay at least the prevailing wage for the occupation in
     the area of intended employment.

However, employers often do not comply with the above criteria. Our 1996 audit
(Report No. 06-96-002-03-321, issued May 22, 1996) found that virtually all
                                         3
aliens who eventually obtained permanent residence status were in the U. S. at
the time of application. Three-fourths were already working for the
petitioning employer. In fact, aliens occupying the jobs sometimes interviewed
U. S. workers for the jobs. In many cases, the employee was using the
permanent foreign labor program to gain permanent residency status, as
evidenced by the fact that the alien, not the employer, paid all the fees
associated with filing for the labor certification. Our prior audit also found that
employers created nonexistent jobs to help obtain permanent resident visas for
relatives, friends and acquaintances. Finally, employers specifically tailored
advertised job requirements to aliens’ qualifications, thus eliminating qualified
U. S. workers from consideration.

Using the basic process method, the employer completes an Application for
Alien Employment Certification (Form ETA 750), including Part A, “Offer of
Employment” and Part B, “Statement of Qualifications of Alien.” The application
describes in detail the job duties, educational requirements, training, experience
and other special capabilities the applicant must possess to do the work, and a
statement of the prospective immigrant’s qualifications. (The term prospective
immigrant is misleading, as our past audit work has found that the “prospective
immigrant” is often already in the U. S. and working for the petitioning employer.)

The employer then submits the application to the SWA responsible for the
specific job location. The SWA stamps the application’s “priority date” the day it
is received and completes a preliminary review of the application. The SWA also
notifies the employer of potential problems, including if the minimum
requirements for the position are reasonable and job-related, and determines that
the wage offered meets minimum prevailing wage standards.

The SWA will work with the employer to develop a job advertisement for
placement in either a journal or newspaper of general circulation in the area of
intended employment, depending on the nature of the job. The ad must contain
a complete description of the vacancy including job responsibilities, duties, salary
and minimum qualifications (education, training, and experience). The employer
must interview all candidates who apply and meet the position requirements.
The SWA opens a 30-day job order and also refers applicants to the employer,
based on responses to that job order. The employer is required to post the job
order internally for 10 consecutive days, including responses to the overall
recruitment results via normal or the established method established for
employee notifications. However, the required labor market test is not designed
to survey the labor pool available at the time the alien actually adjusts to
permanent resident status. Given the length of time required from the time the
employer submits an application to the time the certification is approved –
sometimes 2 to 3 years – there is little assurance that sufficient U. S. workers are
not available and able to perform the jobs at the time the foreign workers adjust
to permanent resident status.

After the job vacancy has been advertised, the employer evaluates job
candidates against the job criteria established in the application and submits a
                                         4
recruitment report to the SWA detailing the applications and referrals received
and candidates interviewed, including any decisions made to hire or not hire the
candidates. As previously mentioned, U. S. workers are seldom hired for these
jobs because the foreign workers are, in fact, already working for the employer
and simply seeking permanent resident status.

If any qualified U.S. workers are identified, the SWA will advise the employer that
due to the qualifications of the U.S. worker(s) the applications may be denied by
the regional certifying officer (CO) upon review.

Once the employer has satisfactorily provided the SWA with requested
documentation, the information the SWA gathered is collected and forwarded to
the ETA regional office for review and a decision. Generally, the SWA notifies
the employer when the application and all associated documents have been
forwarded to the regional CO. Once CO has reviewed the recruitment report and
accompanying documentation, the CO will issue a final determination granting or
denying the application.

The CO may require additional information, interviews, or advertisement if he/she
feels the employer has not met all conditions for certification. The CO may issue
a Notice of Findings (NOF) indicating his/her intent to deny the application and
identifying all reasons for the intended denial. The NOF will also offer the
employer an opportunity to rebut the NOF within 35 days. The letter provides the
employer guidance regarding the employer’s right to appeal the final decision if a
denial is issued.

The above basic process could sometimes take several years depending on the
state in which the job is being offered. States that are popular sites for immigrant
hiring, e.g. New York, Texas, or California, may take much longer than states
with less activity.

For the Reduction in Recruitment Method (RIR), the employer must request
use of RIR when submitting the ETA 750 to the SWA. The RIR method requires
the employer to document that within the last 6 months it has engaged in a
pattern of recruitment in an effort to hire U.S. workers for the position, but has
been unsuccessful in identifying qualified and available U.S. workers.

The employer must submit to the SWA evidence of the pattern of recruitment. In
addition, a summary recruitment report must be provided of the active
recruitment effort to hire U.S. workers at the prevailing wage at a minimum
showing the number of U.S. workers who applied, and the reasons they were not
accepted. After reviewing and processing the application, the SWA forwards the
case file to the CO for review. The CO accepts the RIR effort or returns the
application to the SWA for additional recruitment. If the CO feels the pattern of
recruitment is appropriate to the occupation and the labor market, and does not
identify any other deficiencies, the application is accepted with no need for the
SWA to conduct additional supervised recruitment. Since supervised recruitment
is the most time-consuming aspect of the permanent process, use of RIR can
                                         5
significantly reduce the time required in the SWA/DOL process. It is possible that
the DOL phase of employment-based visas can be accomplished in under 1 year
using the RIR process.

While the use of RIR may reduce the length of time required to obtain permanent
resident status, it is subject to the same vulnerabilities as the basic process: the
alien is frequently already in the country and employed by the petitioning
employer; recruitment efforts to find U. S. workers are easily circumvented; and,
U. S. workers are seldom hired for the advertised positions.

If the CO approves the application, he/she returns the certified ETA 750 to the
employer or agent who submitted the application. The employer must then
submit to the appropriate BCIS service center, a completed “Immigrant Petition
for an Alien Worker” (Form I-140), the certified Form ETA 750, and a check for
the current processing fee of $135. The employer also has the option of filing via
“premium processing” which costs $1,000.

After the alien worker has adjusted to permanent residency status, the DOL has
no control over the immigrant from abandoning employment and remaining in the
U.S. Our prior audit found that over one-third of the permanent FLC aliens
either never worked for the sponsoring employer after adjusting to
permanent resident status or left employment within 1 year of adjusting status.

The length of time required to process permanent labor certification applications
varies from about 1 year using the RIR process to 3 years or more under the
normal process. Not surprisingly, the permanent program has a backlog of about
325,000 unprocessed applications for foreign labor certification. A major factor
contributing to this backlog was the extension of provision 245(i) of the INA that
allowed foreign workers already in the U. S. – legally or illegally – to apply for a
visa while still in the country, if they applied for permanent status by April 30,
2001. This resulted in a large influx of applications that were often found to be of
poor quality and requiring considerably more staff time to process.

The current process for approving these applications involves reviews at the
SWA and ETA regional office levels. ETA has published proposed rules2 that will
streamline the process for filing and processing of labor certification applications
for the permanent employment of aliens in the U.S., specifically to implement the
new Program Electronic Review Management (PERM) system.

Under the PERM system, the employer would provide the SWA the necessary
information regarding the job opening for the SWA to provide the employer with a
prevailing wage determination. (Note: The SWAs will no longer be the intake
point for submission of applications and would not be involved in processing the
applications as they are in the present system.)


2
    67 Federal Register 30466 (May 6, 2002)

                                              6
After receiving the prevailing wage determination, the employer will conduct
recruitment before filing its application for alien labor certification directly with an
ETA application processing center on application forms designed for automated
screening and processing.

The employer must attest to the conditions listed on the Application for Alien
Employment Certification form under penalty of perjury.3 Failure to attest to any
of the following conditions results in a denial of the application:

      !"the wage offered equals or exceeds the prevailing wage and the employer
        will pay the prevailing wage to the alien from the time a petition filed to
        adjust status is approved, or from the time the alien enters the United
        States to take up the certified employment after the issuance of a visa by
        a consular officer;

      !"the wage offered is not based on commissions, bonuses or other
        incentives, unless the employer guarantees a wage paid on a weekly,
        biweekly, or monthly basis;

      !"the job opportunity does not involve unlawful discrimination by race, creed,
        color, national origin, age, sex, religion, handicap, or citizenship;

      !"the employer’s job opportunity is not: vacant because the former occupant
        is on strike or is being locked out in the course of a labor dispute involving
        a work stoppage; or at issue in a labor dispute involving a work stoppage;

      !"the employer’s job opportunity’s terms, conditions and occupational
        environment are not contrary to Federal, state or local law;

      !"the job opportunity has been and is clearly open to any qualified U.S.
        worker; and

As part of the recruitment process, employers would be required to place a job
order with the SWA which would be processed the same as any other job order
placed by employers. The employer would not be required to submit to ETA any
documentation with its application, but would be expected to have assembled
supporting documentation specified in the regulations and would be required to
provide it in the event its application is selected for audit.

After an application has been electronically received, an automated system will
review it based upon various selection criteria. Applications are screened and
found to be either incomplete, or are certified, denied, or selected for audit. If an
audit has not been triggered by the information provided on the application or
because of a random selection for audit, the application will be certified and
returned to the employer. In addition, some applications would be randomly
selected as a quality control measure for an audit without regard to the results of

3
    67 Federal Register 30494 (May 6, 2002)
                                              7
the computer analysis. If an application is selected for audit, the case will be
sent to the appropriate ETA regional office, and the employer will be notified and
required to submit full documentation to verify the information stated in or
attested to on the application. The documentation and application will be sent to
the appropriate ETA regional office to be reviewed by the regional CO.

The CO can certify the application, deny the application, or order supervised
recruitment. If an application is denied, the employer will be able to request the
Board of Alien Labor Certification Appeals (BALCA) review the CO’s decision.
If the employer is ordered to go through supervised recruitment, the ETA regional
office, not the SWA, will supervise the process. When the recruitment is
completed, the employer will submit documented evidence to the CO who will
review the documentation and either certify or deny the application. If denied,
the employer can appeal to the BALCA.

Once DOL has certified the application, there is no time limit for the employer to
file a petition with BCIS to obtain a permanent resident visa for the alien. The
process also allows for employers to substitute another alien for the alien on the
DOL-approved application when the employer files a petition with BCIS. These
two conditions turn the labor certification into a commodity and seriously
undermine DOL’s determination that the underlying job opportunity was/is open
to U.S. workers. Furthermore, this “commodity” becomes subject to fraud and
abuse (see section below on program fraud).

   #"Program Fraud

Given that the foreign labor certification program is one of the few avenues
available for immigrants who want to enter the U.S. legally, and the large
amounts of money unscrupulous agents or recruiters can earn from aliens
seeking entry into the country, there is a strong incentive to commit fraud or
abuse, which can have adverse affects on American wages and working
conditions.

Most recently, the Washington Post reported on August 29, 2003, that the FBI
arrested two Virginia lawyers and a restaurateur on federal immigration fraud
charges for allegedly filing phony labor certifications to get green cards
(permanent residency) for illegal immigrants. The Washington Post article stated
that authorities believe the two lawyers paid the restaurateur about $5,000 to
allow his name to be used on the labor certifications, but he never hired the
immigrants. Once a labor certification is granted, an applicant or law firm is
allowed to substitute another person to receive the green card. The newspaper
article reported that authorities allege the two attorneys would file phony names
and work histories for people in South Korea, then sell substitutions to local
Koreans for fees between $10,000 and $50,000. The article goes on to state
that, according to one informant used in the case, the lawyers charged clients
$50,000 to substitute their names into an application: $10,000 as an attorney
fee, $20,000 as a sponsor fee, and $20,000 as a premium for avoiding a year-
long wait. Only $5,000 would go to a sponsor, and the lawyers would allegedly
                                         8
keep the rest. The Washington Post estimated that the lawyers had pocketed
close to $1.2 million from the scheme, much of it in cash.

During FY 2003 (through August 21, 2003), OIG’s Office of Labor Racketeering
and Fraud Investigations (OLRFI) obtained 168 indictments and 78 convictions
related to fraud in the Foreign Labor Certification program. The following criminal
cases typify the fraud cases uncovered by OLRFI:


   •   A joint investigation conducted with the Department of State-OIG, the
       BCIE, and others revealed that a Virginia attorney submitted thousands of
       applications for labor certifications on behalf of businesses that had no
       knowledge of the filings. None of the employers named by the attorney on
       the applications had authorized him or any of his associates to apply for
       labor certifications on their behalf. The attorney would later sell the
       approved labor certifications to other aliens for between $7,000 and
       $20,000. As a result of the scheme, the attorney and his co-defendant,
       made more than $11 million during an 18-month period. Theco-
       defendant’s role was to go to restaurants and obtain managers’ names
       and signatures, which he later used on the applications without the
       managers’ knowledge. The attorney was convicted on all 57 counts of a
       Federal indictment, including conspiracy, labor certification fraud, false
       statements, immigration fraud, and money laundering. He was sentenced
       to 10 years in prison and was ordered to forfeit $2.3 million to pay
       restitution to his victims. The attorney’s co-defendant pled guilty to
       conspiracy, labor certification fraud, money laundering, immigration fraud,
       and extortion. He was sentenced to over eight years’ imprisonment and
       forfeited over $4 million in cash and real property.

   •   A joint investigation conducted with the BCIE and the FBI found that a
       Washington, D.C., immigration attorney defrauded clients who were
       seeking work visas and permanent resident status of more than $350,000
       over an eight-year period. The attorney sold approved labor certifications
       and work visas without notifying the original applicants. She continued to
       bill and collect fees from the original applicants even though their
       approved documents had been sold or their cases terminated without their
       knowledge. She was sentenced to six years in prison and four years’
       supervised release and was ordered to pay nearly $400,000 in restitution
       to her clients.

   •   An investigation revealed that a Newark, New Jersey, woman who posed
       as an attorney and her business partner allegedly charged more than 200
       alien certification applicants between $4,500 and $8,000 for each
       certification, amounting to nearly $2 million in fees. Both were charged
       with forging alien employment certifications filed with DOL. One defendant
       has pleaded guilty and is awaiting sentencing while the other is still
       awaiting trial.

                                        9
                               CHAPTER 2:
                          TEMPORARY H-1B PROGRAM
                   FOR EMPLOYMENT OF NONIMMIGRANT ALIENS
               IN SPECIALTY OCCUPATIONS OR AS FASHION MODELS

The H-1B program allows an employer to temporarily employ a foreign worker in the
U.S. on a nonimmigrant basis in a specialty occupation or as a fashion model of
distinguished merit and ability. The H-1B program is intended to provide U.S.
businesses with timely access to the “best and the brightest” in the international labor
market to meet urgent but generally temporary business needs for specialty
occupations while protecting the wage levels of U.S. workers. The protection the
H-1B program supposedly provides to U.S. workers is that employers are required to
pay the aliens the prevailing wage for the specialty occupations. However, the H-1B
program does not require there be a shortage of U.S. workers in the occupation for
which the aliens are being hired.

To hire a foreign worker on an H-1B visa, the job must be a professional position that
requires, at a minimum, a bachelor’s degree in the field of specialization, except for
fashion models. Current law limits the number of H-1B visas4 to 195,000 per year
through 2003. The cap on H-1B visas drops to 65,000 in 2004. An H-1B certification
is valid for the period of employment indicated on the application for up to 3 years.
However, a foreign worker can be in H-1B status for a maximum continuous period of
6 years. Certain foreign workers with applications for permanent alien labor
certification or immigrant visa petitions in process for extended periods may stay in H-
1B status beyond the normal 6-year limitation, in 1-year increments. After the H-1B
visa expires, the foreign worker must remain outside the U.S. for 1 year before
another H-1B petition can be approved. The alien’s status, including how long the
alien can remain, or not remain, in the U.S. are immigration issues, not DOL/ETA
issues.

Each employer seeking to hire a foreign worker must submit a completed Labor
Condition Application (LCA) (Form ETA 9035 or 9035E) to the DOL, ETA. At the
DOL/ETA level in the H-1B program, the LCA is not alien specific; i.e., no alien’s name
is listed on the application. On the LCA the employer is requesting ETA’s approval for
one or more positions, not specific aliens. As a result, DOL is unable to make any
assessment as to whether the alien brought in to fill the position possesses the
required qualifications.

By completing and signing the LCA, the employer agrees to several attestations
regarding an employer’s responsibilities, including the wages, working conditions, and
benefits to be provided to the H-1B nonimmigrant. Specifically, the employer:



    !"documents the job title and occupational code of the position sought;

4
  There is no limit as to the number of applications that can be filed; only the number of actual
visas that can be issued by BCIS is currently limited to 195,000 per year.
                                                 10
   !"states the actual wage to be paid and prevailing wage (actual wage must be at
     least 95% of prevailing wage);

   !"states the period of alien’s intended employment, place of employment, and
     number of aliens sought;

   !"agrees to “labor condition statements” regarding payment of actual wage and
     alien’s employment not adversely affecting working conditions of other U.S.
     workers similarly employed;

   !"declares under penalty of perjury that information provided is true and accurate;
     and

   !"declares that compliance will be made with DOL regulations and the INA.

The LCA contains additional attestations for certain H-1B dependent employers and
employers found to have willfully violated the H-1B program requirements. These
attestations impose additional obligations to recruit U.S. workers, offer positions to
U.S. workers who are equally or better qualified than the H-1B nonimmigrant(s), and
avoid the displacement of U.S. workers. If ETA approves the LCA, a copy of the LCA
is returned to the employer.

As explained above, the LCA simply requires employers to make certain attestations
that program requirements have been met. Employers are not required to provide any
supporting documentation for DOL to review prior to making a determination on the
LCA.

Within 1 working day after the date on which the LCA is filed with ETA, the employer
must make the LCA and necessary supporting documentation available for public
examination at the employer’s principal place of business in the U.S. The employer
may then submit a copy of the approved LCA to the BCIS with a completed petition
requesting H-1B classification. The nonimmigrant worker is not allowed to begin work
for the employer until BCIS grants the worker authorization to work in the U.S. for that
employer or, in the case of a nonimmigrant who is already in H-1B status and is
changing employment, to another H-1B employer until the new employer files a
petition supported by a certified LCA.

The employer is required to maintain documentation to meet its burden of proof with
respect to the validity of the statements made in its LCA and the accuracy of
information provided. The documentation shall be maintained at the employer’s
principal place of business in the U.S. and the documentation shall be available to
DOL for inspection and copying upon request.

Nonimmigrants cannot gain H-1B status on their own; i.e., a U.S. employer must
sponsor them. However, an OIG audit conducted in 1996 found some aliens who
were owners of their own businesses petitioned on their own behalf. These business

                                        11
owners had someone else sign the LCA to hide the fact that they were sponsoring
themselves.

Prior to filing an LCA, the employer must determine the prevailing wage for the
position. Several avenues are available:

   !"using a determination for the occupation and area issued under the Service
     Contract Act or the Davis-Bacon Act;

   !"using a rate set forth in a collective bargaining agreement;

   !"requesting that a SWA prevailing wage determination be made;

   !"using a survey conducted by an independent authoritative source; and

   !"using another legitimate source of information.

Also, the employer must determine the actual wage for the position and must pay at
least the higher of the two wage rates. The actual wage is the rate paid by the
employer to other individuals with similar experience and qualifications for that type of
work.

Our 1996 audit of the H-1B program found that employers paid the alien workers less
than the wages they certified they would pay in the LCAs, thus not protecting the
wages of U. S. workers in similar positions. We also found that some employers paid
the alien workers as independent contractors and thus were not in an employer-
employee relationship with the alien. By paying the alien workers as contractors,
employers were able to avoid witholdings for income taxes, social security and
Medicare. Employers also did not report the wages of the “contractors” to the State
Workforce Agency and thus avoided paying state unemployment taxes.

In addition to the above requirements, the employer must inform workers of the intent
to hire a foreign worker by posting the completed LCA for the position. The posting
must occur in one of two methods, hard copy or electronic notice. The hard copy
notice must be given to the bargaining representative for workers in the occupation or,
if there is no bargaining representative, be posted for 10 consecutive days in at least
two conspicuous locations at each place of employment where any H-1B
nonimmigrant will be employed. The electronic notice must be distributed at each
place of employment where any H-1B nonimmigrant will be employed. Distribution
can be by whatever means the employer normally communicates with its employees.
However, the H-1B program does not require employers to demonstrate that a
shortage of U. S. workers exists in the occupation for which the aliens are being
hired.

The actual filing of an LCA can be done in one of three ways: online submission,
facsimile (FAX) transmission or by U.S. mail.



                                         12
   1.      If the employer uses the LCA Online System it provides step-by-step
           instructions for completing and submitting the LCA (Form ETA 9035E)
           electronically. The employer can expect a response in minutes, unless the
           prevailing wage source is unknown and must be reviewed by DOL. If
           review is necessary, the response will be the next working day.

   2.      If the LCA is submitted by FAX (Form ETA 9035), the employer can usually
           expect a response within two working days, although DOL has seven days
           to process the application. The FAX (Form ETA 9035) is scanned into the
           electronic system by DOL staff and then the system processes the LCA.

   3.      An LCA (Form ETA 9035) submitted by U.S. mail is sent to Philadelphia,
           Pennsylvania, where it is scanned into the electronic system and processed.

ETA will return the LCA to the employer or authorized agent, not certified, when either
or both of the following two conditions exist: not properly completed, or contains
obvious inaccuracies.

Examples of LCAs not properly completed include the following: instances where the
employer has failed to mark the attestations or has failed to state the occupational
classification, number of nonimmigrants sought, wage rate, period of intended
employment, place of intended employment, prevailing wage and its source, or the
signature of the employer or authorized agent.

Examples of obvious inaccuracies in the LCA include the following: filing an
application in error (employer has been disqualified from employing H-1B
nonimmigrants), stating a wage rate below the Fair Labor Standards Act’s minimum
wage, submitting an LCA earlier than 6 months before the beginning date of the period
on intended employment, identifying a wage rate which is below the prevailing wage
listed on the LCA, or identifying wage range where the bottom of the range is lower
than the prevailing wage listed on the LCA.

If the LCA is returned for correction, the employer makes appropriate changes and
resubmits the application. ETA processes resubmissions as if they are new requests.

LCAs submitted by fax or by mail are processed in a couple of days, while the
processing time for LCAs submitted electronically is only minutes. The electronic filing
of LCAs has eliminated any backlogging of pending LCAs; however, DOL has minimal
human intervention during the review process and the certification approval is simply a
rubber stamp as long as the LCA is complete and free of obvious errors.

The final rule on electronic filing, includes the following statement:

        . . . the scope of the Department’s review of LCAs under section
        212(n)(1)(D) of the [Immigration and Nationality Act (INA)] is limited
        to “completeness and obvious inaccuracies”. . . . Because the
        electronic filing system includes guidance to the employers in filling
        out their applications “on line,” the LCAs will have fewer incomplete
                                         13
          or obviously inaccurate entries and will, therefore, ordinarily be
          acceptable for immediate electronic certification. 5

The OIG believes that if DOL is to have a meaningful role in the labor certification
process, it should have corresponding statutory authority, not currently available,
to ensure the integrity of the process, by verifying the accuracy of the information
provided on LCAs. In our opinion, as the H-1B program is currently operated,
DOL adds nothing substantial to the process. It would be more efficient if the
employers filed their applications directly to BCIS, for visa approval.

Upon DOL certification, the employer submits to the BCIS the ETA-approved LCA,
filing fees, Immigration Form I-129, and any other required supporting documentation.
The fee includes a base fee of $130 plus $1000 additional for the H-1B petitions.
Also the employer can receive premium-processing service (within 15 days) by
submitting Form I-907 and an additional $1000.

The processing system used by DOL for LCAs is designed to certify applications
quickly rather than screen out applications that do not meet program
requirements. OIG investigations continue to identify fraud in the H-1B program
(see section below on program fraud) which may result in security risks
associated with aliens admitted to the U. S. by fraudulent means. DOL does not
track the movement of H-1B visa holders while in the U. S. and has no way to
prevent the nonimmigrant from abandoning employment and remaining in the
U. S.

--Proposed Changes to Rules or Regulations

The DOL is proposing to change the rules that impact the H-1B visa program.
The proposed rule would amend the regulations governing the employer’s wage
obligation.

The prevailing wage for the occupation classification in the area of intended
employment must be determined as of the time the employer files an LCA with
DOL. The new regulation provides that the employer shall base the prevailing
wage on the best information available as of the time of filing the application.
The Department believes that the following prevailing wage sources are, in order
of priority, the most accurate and reliable: SWA determination, an independent
authoritative source, or another legitimate source of wage information.

Furthermore, the proposed regulations would require that every H-1B
nonimmigrant is to be paid in accordance with the employer’s actual wage
system, and thus to receive any pay increases which that system provides. It is
undetermined when or if the proposed changes will become final rules.

--Program Fraud

5
    66 Federal Register 63298 (December 5, 2001)
                                              14
The OIG continues to identify fraud in the H-1B temporary work visa program.
These cases involve fraudulent LCAs that are filed on behalf of fictitious
companies and corporations, individuals who file petitions using the names of
legitimate companies and corporations without their knowledge or permission,
and immigration attorneys and labor brokers who collect fees and file fraudulent
applications on behalf of their clients. The following criminal cases typify the
fraud committed against the H-1B program:

   •   A joint investigation conducted with the BCIS, FBI, and others found a
       widespread conspiracy since 1986 to bring at least 25 Indian nationals into
       the United States through fraudulent abuse of the H-1B visa program.

   •   A joint investigation conducted with the BCIS and the Department of State
       found that over a 3-year period, a former immigration consultant in San
       Francisco, California, and her co-conspirator, a controller of a California
       firm specializing in convalescent care, filed hundreds of fraudulent
       petitions for Filipino aliens seeking admission to the United States through
       the H-1B visa program. Instead of placing them in high skilled jobs as
       required, the perpetrators placed the foreign workers in low-skilled, low-
       paying jobs, such as janitors, certified nursing assistants, and
       maintenance staff.

   •   A joint investigation conducted with the BCIS revealed that from July 2000
       to March 2001, the CEO of a company in Austin, Texas, filed 42 H-1B visa
       petitions on behalf of South African information technology professionals,
       claiming that his company would hire the visa applicants as systems
       analysts, earning $42,000 per year. The investigation disclosed that the
       perpetrator falsified information on the forms he submitted to DOL and the
       INS, because the company had no jobs available for applicants when they
       entered the country. Once the applicants arrived in the United States,
       they were instructed to find their own jobs through Internet web sites, yet
       each applicant was charged between $850 and $2,330 to process the H-
       1B visa application.

   •   A joint investigation conducted with the BCIS uncovered a scheme
       involving a woman who filed approximately 200 labor condition application
       forms with DOL, and attested that her company had computer
       programming and consulting jobs (supposedly paying $40,000 to $60,000
       per year) for aliens in the United States when in fact there were no such
       jobs available. By completing and filing the labor condition applications
       with DOL, the woman caused visa petitions to be issued by what was then
       the INS. The petitions granted visa status to numerous aliens who arrived
       in the United States from India without employment in the computer
       industry. Some of the aliens admitted to paying approximately $3,000
       each for obtaining the visas.



                                        15
                          CHAPTER 3:
                        H-2A PROGRAM
     FOR THE TEMPORARY EMPLOYMENT OF NONIMMIGRANT ALIEN
                   AGRICULTURAL WORKERS


The H-2A temporary or seasonal agricultural workers program establishes a
means for agricultural employers who anticipate a shortage of U.S. workers to
bring nonimmigrant foreign workers to the U.S. to perform agricultural labor or
services of a temporary or seasonal nature.

Temporary or seasonal agricultural employment is performed at certain seasons
of the year, usually in relation to the production and/or harvesting of a crop, or for
a limited time period of less than 1 year when an employer can show that the
need for the foreign worker(s) is truly temporary.

A proprietorship, a partnership, or a corporation can file an H-2A application for
temporary or seasonal agricultural workers. An association of agricultural
producers may file as a sole employer, a joint employer with its members, or as
an agent of its members. An agent may be authorized by the employer to act on
the employer’s behalf in all phases of the application process. The authorized
agent may be an individual, an attorney, or an entity (such as an association).
Associations may file master applications on behalf of their members.

Before the BCIS can approve an employer’s petition for temporary or seasonal
agricultural workers, the employer must file an application with the DOL, ETA.
By filing the application, the employer is assuring that sufficient U.S. workers who
are able, willing and qualified are not available, and that employing aliens will not
adversely affect the wages and working conditions of similarly employed U.S.
workers.

The appropriate CO must receive the original application for alien employment
certification at least 45 calendar days before the first date on which workers are
needed. A simultaneous copy of the application must also be filed with the SWA
in the state where the work will be performed. If the initial application is accepted
or amended within the required time frame and complies with the regulations, the
CO will make a certification determination 30 calendar days before the date on
which the workers are needed.

The Department’s ESA, Wage and Hour Division (WHD), has responsibility for
enforcing provisions of workers’ term of conditions of employment (wage rate,
hours, housing, meals, etc.).

Once the employer files the application (Forms ETA 750 and 790) and all
required assurances, the CO reviews it promptly. Within 7 calendar days after
receiving an application, the CO will notify the employer or agent in writing of the
decision to accept or reject the application. Copies of the notification will be sent
to the SWA and to the employer or agent by FAX or next day delivery mail.
                                         16
OIG conducted an audit of the H-2A program for the period October 1, 1995,
through September 30, 1996. The primary audit objective was to determine the
DOL’s effectiveness in meeting its H-2A program responsibilities. This audit
found that applications for workers were not processed within statutory time
frames. The sample tested in the prior audit reflected that in 60 percent of
applications filed (193 of 318) the employers were not notified of ETA’s action
within the requisite 7-day period. ETA missed the 7-day requirement by an
average of 15 days.

After ETA accepts the employer’s application, within 23 days of the anticipated
date of need, the employer must provide ETA with evidence that the housing
inspections and other program requirements have been completed. ETA must
provide the employer with its decision to certify the numbers of workers
requested (all or in part), no later than 20 days before the first date of need. The
sample tested in the prior OIG audit reflected that ETA missed the 20-day
requirement on 40 percent of the certifications tested (130 of 318) by an average
of 8 days.

If the application is accepted, the CO notifies the employer/agent and the SWA
that the application process includes independent positive recruitment efforts
within a multi-state region of traditional or expected labor supply and requires the
SWA to place a job order into appropriate intrastate and interstate clearances.

Our prior audit of the H2A program found that Interstate job orders assist in
addressing local shortages by advertising openings in areas where a surplus of
available labor exists. However, agricultural clearance orders received little
attention and resulted in few referrals of U.S. workers.

Although the SWAs are ETA’s partner in helping recruit U.S. workers, most
employers used other means to recruit farm workers. In recent years, an
increasing proportion of agricultural workers are in the U.S. illegally. A 1995 DOL
study conservatively estimated that 37 percent of the agricultural workforce, or
600,000 workers, were illegal foreign workers. In contrast, ETA certified only
about 18,000 crop workers during Fiscal Year 1996. Consequently, most
employers recruit farm workers from a large population of unauthorized foreign
workers.

Many of the benefits that must be included in a job offer and other conditions that
must be satisfied are dependent upon what prevailing practices and prevailing
wage rates exist in the same occupation, crop, and area.

An employer must meet specific requirements, such as conducting appropriate
recruitment, paying prevailing wages, and providing housing, meals,
transportation, workers compensation insurance, tools and supplies, three-
fourths anticipated work (contract) period guarantee, and ongoing recruitment
efforts for 50 percent of the contract period.

                                         17
During our prior audit, a sample of Fiscal Year 1996, H-2A certifications indicated
that neither the SWAs’ efforts nor the employers’ required recruiting efforts
resulted in significant numbers of U.S. workers being placed in agricultural jobs;
2 percent (252 of 10,134) were filled by U.S. workers.

Our prior audit also noted that:

   !"SWAs’ efforts to recruit workers were often passive and few domestic
     referrals came from local, intrastate, or interstate activities.

   !"Some SWAs were hesitant to refer workers to employers because they
     believed sincere efforts to employ them would not be made.

   !"Typically, the SWAs’ records did not distinguish workers referred by the
     SWAs efforts from those referred through employers’ recruitment.

   !"Widespread use of fraudulent documents (Form I-9, Employment
     Eligibility Verification) by agricultural workers went undetected by the
     BCIS. As a result, growers, DOL and the SESAs often could not
     distinguish unauthorized foreign job applicants from U.S. workers.
     Evidence suggested that the SWAs had in some instances referred
     unauthorized workers, believing they were U.S. workers, to fill requested
     H-2A jobs. No procedures were in place to verify an individual’s legal
     status before he/she was hired.

   !"Employers were not required to document their efforts to recruit U.S.
     workers and to continue cooperation with the SWAs in local, intrastate and
     interstate recruitment.

Other conditions state that the employer must keep accurate records with respect
to a worker’s earnings. The worker must be provided with a complete statement
of hours worked and related earnings on each payday. The employer must pay
the worker at least twice monthly or more frequently if it is the prevailing practice
to do so. The employer must provide a copy of a work contract or the job order
to each worker.

In emergency situations the CO may waive the 45-day filing requirement,
provided there is sufficient time to obtain sufficient labor market information on an
expedited basis in order to make a determination of U.S. workers’ availability.
None of the minimum conditions of employment (wages, housing, other benefits)
are waived.

Our prior audit found that ETA’s data representing a total of the nation’s seasonal
crop workforce was unreliable regarding the number of job openings in the U.S.
Also, ETA did not maintain nationwide data on its certification activities to
evaluate program activities. Instead, each regional office was expected to
maintain a log of activities. Both the means used to collect data and the data
being collected were found to be inconsistent. Regional data collection
                                         18
procedures ranged from manual tabulation to data entry and storage in a variety
of data processing formats. Data available among offices was also inconsistent,
as the statistics collected depended upon the data elements each office felt was
useful. ETA’s national office obtained program information either through
telephone calls to the regional offices or through manually prepared documents.
As needed, ETA obtained statistics from each region for the number of
applications certified, number of job openings, and amount of certification fees
collected. ETA did not maintain and analyze data needed to help evaluate the
program’s effectiveness, such as applicant referrals and placements.

If the application is not accepted, the CO will notify both the employer and SWA
in writing within (7) calendar days after receipt of the application. The notice of
non-acceptance will state why the employer’s application is not acceptable. It will
identify what revisions are required for the application to be accepted, inform the
employer that they have 5 calendar days from the date of the notice in which to
resubmit the application with modifications to correct any deficiencies and what
procedures the employer may use to appeal the CO’s nonacceptance. If the
employer resubmits an application with modifications, the amended application
must be filed with the CO, and a copy to the SWA.

The CO will deny the certification for any of the following reasons:

   !"the application does not meet the required time frames (except in
     emergency situations) and enough time is no available to test the
     availability of U.S. workers;

   !"enough able, willing and qualified eligible U.S. workers are available to fill
     all the employer’s job opportunities;

   !"the employer has not complied with the worker’s compensation
     requirements;

   !"the employer has not satisfactorily complied with positive recruitment
     requirements;

   !"the employer, since the application was accepted for consideration, has
     adversely affected the wages, working conditions, or benefits of U.S.
     workers; or

   !"after appropriate notice and opportunity for a hearing, the CO determines
     that the employer has substantially violated a material term or condition of
     a previous H-2A certification within the last 2 years.

Our prior audit found that ETA’s decision to certify an application was often
based on incomplete information. Certifications of applications were routinely
issued without complete information on the results of efforts to recruit U.S.
workers or without documentation that the petitioning employers’ housing had
been inspected and was acceptable.
                                        19
If the CO determines that the employer has complied with the recruitment
assurances, the adverse effect criteria, all time requirements, and other
appropriate requirements established by law and regulation, then the CO will
grant the temporary foreign agricultural labor certification for the number of job
opportunities for which it has been determined there are not sufficient U.S.
workers available. After certification has been granted, the employer must
continue to recruit U.S. workers until the H-2A workers have departed for the
place of work and throughout 50 percent of the work period. Also, the SWA will
continue to refer to the employer qualified and eligible U.S. workers who are
seeking employment and who apply and qualify for the job opportunity for up to
50 percent of the contract period, and the employer must hire these U.S.
workers.

The 50 percent recruitment rule may burden employers and workers. While the
intent of this requirement is to ensure that domestic workers continue to be
afforded job opportunities, it could burden employers and result in foreign
workers being dismissed without the means to return home. Agricultural
employers have indicated that they believe the requirement should be changed
because it could result in having H-2A workers replaced after the employer had
borne the expenses of transporting, training, and housing foreign workers. Thus,
an agricultural employer could be required to choose between paying more
workers than needed or displacing trained workers with new workers. Further, it
could result in unjust injury to displaced foreign workers.

The ESA, WHD has a primary role in investigating and enforcing the terms and
conditions of employment for workers admitted to the U. S. under the H2A
program. ESA is responsible for enforcing the contractual obligations employers
have toward employees and may assess civil money penalties and recover
unpaid wages. Administrative proceedings and/or injunctive actions through
Federal courts may be instituted to compel compliance with an employer’s
contractual obligations to employees.

ETA is responsible for administering sanctions relating to violations of the
regulations. For substantial violations this sanction is the denial of certification
for up to 3 years. For less than substantial violations, as a condition for
certification in a subsequent year, the CO may require the employer to comply
with special procedures designed to enhance the recruitment and retention of
U.S. workers during the season.

DOL’s division of responsibilities, with ETA handling compliance with certification
requirements and ESA enforcing the terms of work contracts, prevents cohesive
enforcement of program requirements and contributes to uncertainties over
responsibilities.

ESA has no authority to issue sanctions against employers for violating program
requirements. Sanctions are ETA’s responsibility. Our prior audit of the

                                          20
H-2A program found little evidence of interface between the two entities and
concluded that the authority to apply sanctions would be more effective if
combined with the authority to investigate wage and working condition violations
and invoke penalties. It would allow one agency to have more complete
knowledge and more effectively address the activities of unscrupulous
employers.

Proposed Changes to Rules or Regulations

ETA published H-2A program implementing regulations6, identifying DOL’s
responsibilities, as an interim final rule with a request for comments on June 1,
1987. We are unaware of any changes to these regulations in more than 16
years.




6
    52 Federal Register 20496 (June 1, 1987)
                                               21
                            CHAPTER 4:
                     H-2B TEMPORARY PROGRAM
            FOR THE EMPLOYMENT OF NONIMMIGRANT ALIEN
                    NONAGRICULTURAL WORKERS


The H-2B program allows employers to hire foreign workers to come to the U.S.
and perform temporary nonagricultural work when U.S. workers are not available.
Work performed under H-2B visas work must be a one-time occurrence, or a
seasonal, peak load, or intermittent need. The job must be for less than 1 year
(10 months is the time period utilized). If extraordinary circumstances establish a
need that requires the alien worker’s services for more than a year, a new
application must be filed. Under no instance may the time for a particular job be
certified to exceed 3 unbroken years. During each fiscal year, the BCIS may
issue H-2B status to 66,000 foreign workers.

The employer applies for H-2B certification at least 60 days, but not more than
120 days, before the worker is needed. The certification request may contain
multiple openings of the same job and rate of pay. The certification is issued to
the employer, not the worker(s), and is not transferable from one employer to
another or from one worker to another. These procedures do not apply to
applications filed on behalf of aliens in the entertainment industry and in
professional team sports.

The employer files an application (Form ETA 750) to the SWA local or state
office serving the area of proposed employment, including documentation of any
efforts to recruit U.S. workers the employer made before filing the application.
Also, the employer must provide a convincing statement explaining why the job
opportunity is temporary and that the employer’s need for the work is either a
one-time, seasonal, peak, or intermittent need.

The SWA reviews the job offer for completeness, and:

   !"instructs the employer on mandatory recruitment, appropriateness of the
     wages and working conditions offered;

   !"opens a job order for 10 days;

   !"issues ad instructions; and

   !"refers qualified candidates to the employer for interviews.

After the interviews of job applicants are completed, the employer must prepare a
recruitment report summarizing its efforts to hire U.S. workers. The report must
include the name, address, and the lawful reason for not hiring the applicants.




                                        22
When the SWA has finalized its process, the application file is forwarded to the
DOL regional CO. The application must be either certified or denied within 30
days of receipt.

The application will be certified if the CO finds that qualified U.S. workers are not
available and that the terms of the employment will not adversely affect the
wages and working conditions of workers similarly employed in the U.S. The
DOL decision is only an advisory to the BCIS; employers may appeal DOL’s
application denials directly to BCIS. The BCIS may accept or reject the DOL
advice.

In our opinion, the priority DOL must put on H-2B applications because of the 30-
day requirement for certification or denial – which is advisory only -- increases
the vulnerabilities in other programs where DOL has a more authoritative role.

Applications for forestry workers, aerospace engineers, construction workers and
boilermakers have special processing procedures. Most of the special
procedures involve recruitment and instances of national emergency situations.

To obtain the H-2B work visa, the employer must submit the DOL certification or
notice of denial, an Immigration form (I-129), and filing fees to support its petition
filed with the BCIS. Once the BCIS has approved the petition, the employer will
receive written notification, and in the case of aliens not already in the U.S., the
designated embassy or consulate will be notified.

Aliens not currently in the U.S. must obtain a visa from an embassy or consulate
office prior to entering the U.S.

The existence of an approved BCIS petition does not ensure the alien will be
issued a visa. Consulate officials are required to obtain sufficient documentation
from applicants to establish the applicant’s eligibility to receive a nonimmigrant
visa. If the consulate official finds the applicant eligible, a visa will be issued that
includes the type of status approved and the period of validity.

DOL has an indirect role for minimizing national security risk posed by foreign
labor programs. ETA’s role is to determine whether the employer truly needs
foreign labor and to ensure that the presence of foreign laborers will not
negatively impact U.S. workers’ wages and working conditions. Additionally, the
ESA, WHD must ensure that employers are not encouraging alien workers to
abandon the worksite by not fulfilling their contractual obligations as to benefits,
wages, and working conditions. If ETA and WHD do not perform their roles
diligently, the result could be an unnecessary influx of alien workers and an
increased national security risk.




                                           23
Proposed Changes to Rules or Regulations

The OIG is unaware of any legislative changes regarding the H-2B program.
However, we understand DOL, ETA is reviewing and updating the General
Administration Letter for this program.




                                     24
                               CHAPTER 5:
                              D-1 PROGRAM
                        CREWMEMBERS CERTIFICATION

Performance of longshore work at U.S. ports by D-1 crewmembers on foreign
vessels is generally prohibited with few exemptions. The Department of Labor is
responsible for administering two of those exemptions.

   •   that the use of alien crewmembers to perform longshore work is the
       prevailing practice for the activity at that port, there is no strike or lockout
       at the place of employment, and that notice has been given to U.S.
       workers or their representatives.

   •   before using alien crewmen to perform longshore activities in the State of
       Alaska, the employer will make a bona fide request for and employ U.S.
       longshore workers who are qualified and available in sufficient numbers
       from contract stevedoring companies, labor organizations recognized as
       exclusive bargaining representatives of U.S. longshore workers, and
       private dock operators.

Employers in these ports are required to file an attestation directly to the Chief,
Division of Foreign Labor Certification, with the Department of Labor. The
attestations are valid for one year.

Violations may produce penalties to the employer of up to $5,000 for each
crewmember wrongfully performing longshore work, and could bar vessels
owned or chartered by the employer from entering all U.S. ports for up to one
year. There has been no activity under the prevailing practice exception since the
enactment of legislation creating a separate exception for the performance of
longshore work at locations in the State of Alaska.

OIG has not performed audit work in the D-1 program.




                                           25
                               CHAPTER 6
                             H-1C PROGRAM
                    NURSES IN DISADVANTAGED AREAS

The Nursing Relief for Disadvantaged Areas Act of 1999 (NRDAA) allows
qualifying hospitals to employ temporary foreign workers (nonimmigrants) as
Registered Nurses (RNs) for up to three years under H-1C visas. Only 500 H-1C
visas can be issued each year during the four year period of the H-1C program
(2000-2004). The sponsoring employer must pay a filing fee of $250 for each
application filed with the DOL.

H-1C nurses may be admitted for a period of three years; thus far, the law does
not provide for an extension of that time frame.

OIG has not performed audit work in the H-1C Program.




                                       26
                                                                 APPENDIX 1

      SUMMARY OF FOREIGN LABOR CERTIFICATION PROCESSES

                                             Permanent   H-1B   H-2A   H-2B
Employers:
Submit application/petition to SWA              √                       √
Submit application/petition simultaneously
to SWA and ETA                                                   √
Submit labor condition application or
petition to DOL/ETA                                       √
Make the application available for public
examination                                               √
Conduct appropriate recruitment                 √                √      √
Pay prevailing wages                            √         √      √      √
Provide housing, meals, transportation,
workers’ compensation insurance, tools                           √
and supplies
Submit recruitment report to SWA                √                √      √
Rebut Notice of Findings                        √
Continue recruitment efforts to find
qualified U. S. workers for 50 percent of                        √
the work contract period
Appeal denial to BALCA                          √                √
Revise denied application within 5
calendar days and resubmit to ETA, with a                        √
copy to the SWA
Keep accurate records with respect to
workers’ earnings                                                √
File Immigration Petition for an Alien
Worker with BCIS                                √         √      √      √
File approved application with BCIS             √         √      √      √
Provide ETA with evidence that housing
inspections and other program                                    √
requirements have been completed




                                      27
                                                                   APPENDIX 1

      SUMMARY OF FOREIGN LABOR CERTIFICATION PROCESSES

                                               Permanent   H-1B   H-2A   H-2B
                   SWAs:
Review employer’s application                      √                √     √
Develop a job advertisement/job orders             √                √     √
Refer qualified U. S. applicants                   √                √     √
If qualified U. S. workers are identified,
notify employer that application will likely       √
be denied
Continue to refer qualified U. S. workers to
the employer throughout 50 percent of the                           √
work period
Forward application to ETA Regional
Office                                             √                      √
                  DOL/ETA:
CO reviews application and may require
additional interviews or issue a Notice of         √
Findings indicating intent to deny
Issue Final Determination/Certification            √         √      √     √
Review online LCA and respond in
minutes                                                      √
Review LCA submitted by fax and process
within 7 working days                                        √
Scan LCA received by U. S. mail into the
online system                                                √
Return improperly completed LCAs to
employer or authorized agent                                 √
Process resubmissions as if they are new
requests                                                     √
Issue statement of acceptance or non-
acceptance of application to employer and                           √
SWA within 7 days of receiving application
                  DOL/ESA:
Investigate and enforce terms and
conditions of employment                                            √




                                        28
                                                    APPENDIX 2




        SUMMARY OF VULNERABILITIES


                         •   Employers do not comply with the
                             qualifying criteria


                         •   Labor market test does not protect
                             U. S. workers


                         •   RIR process subject to same
                             vulnerabilities as the basic process
 PERMANENT
    ALIEN
   LABOR                 •   DOL has no control over the
CERTIFICATION                immigrant abandoning employment
  PROGRAM                    and remaining in the U. S.


                         •   Proposed PERM system lacks
                             many internal controls


                         •   Program remains highly susceptible
                             to fraud




                    29
                                                           APPENDIX 2
              SUMMARY OF VULNERABILITIES


                                  •   Program does not require there be
                                      a shortage of U.S. workers in the
                                      occupation for which the aliens are
                                      being hired


                                  •   DOL is unable to make any
                                      assessment as to whether the alien
                                      brought in to fill the position
                                      possesses the required
                                      qualifications


                                  •   Employers are not required to
                                      provide any supporting
                                      documentation for DOL to review
                                      prior to making a determination on
     H-1B PROGRAM FOR                 the LCA
EMPLOYMENT OF NONIMMIGRANT
    ALIENS IN SPECIALTY
                                  •   Employers may not comply with
 OCCUPATIONS OR AS FASHION            program requirements, e.g., paying
           MODELS                     aliens less than the prevailing
                                      wage, or categorizing aliens as
                                      independent contractors to avoid
                                      paying state unemployment taxes


                                  •   Electronic filing leads to little
                                      human intervention during review
                                      process


                                  •   DOL has no control over the
                                      immigrant abandoning employment
                                      and remaining in the U. S.


                                  •   Program remains highly susceptible
                                      to fraud




                             30
                                                          APPENDIX 2
             SUMMARY OF VULNERABILITIES
                               •   Applications for foreign workers not
                                   processed within statutory time
                                   frames.
                               •   SWA job orders for domestic
                                   agricultural workers received little
                                   attention, resulted in few referrals
                                   of U. S. workers and even fewer
                                   placements.
                               •   Most employers do not use SWAs
                                   to recruit farm workers and may be
                                   recruiting from a large population of
                                   foreign workers who are in the U.
                                   S. illegally.
                               •   Employers were not required to
                                   document their efforts to recruit
                                   U. S. workers.
                               •   Data on the nation’s seasonal crop
                                   workforce and number of job
                                   openings may be unreliable.
                               •   ETA did not maintain and analyze
   H-2A PROGRAM FOR THE            data needed to evaluate H-2A
TEMPORARY EMPLOYMENT OF            program effectiveness.
   NONIMMIGRANT ALIENS         •   Application certifications were often
  AGRICULTURAL WORKERS             based on incomplete information on
                                   the results of efforts to recruit U. S.
                                   workers or without documentation
                                   that the petitioning employers’
                                   housing had been inspected and
                                   was acceptable.
                               •   The rule requiring SWAs to refer U.
                                   S. workers to employers throughout
                                   50 percent of the work period may
                                   burden employers and result in
                                   foreign workers being dismissed
                                   without the means to return home.
                               •   DOL’s division of responsibilities,
                                   with ETA handling compliance with
                                   certification requirements and ESA
                                   enforcing terms of work contracts
                                   prevents cohesive enforcement of
                                   program requirements.
                               •   After more than 16 years, H-2A
                                   regulations have not been issued in
                                   final form.




                          31
                                                          APPENDIX 2

               SUMMARY OF VULNERABILITIES

                              The priority DOL must put on H-2B
                              applications because of the 30-day
                              requirement for certification or denial –
                              which is advisory only – may increase
H-2B TEMPORARY PROGRAM FOR    the vulnerabilities in other programs
THE EMPLOYMENT OF             where DOL has a more substantive
NONIMMIGRANT ALIEN            role.
NONAGRICULTURAL WORKERS       If ETA and WHD do not perform their
                              roles diligently, the unintended
                              consequence may be an unnecessary
                              influx of alien workers who abandon
                              the worksite.




                             32
                                                                APPENDIX 3
                         ABBREVIATIONS


BALCA   Board of Alien Labor Certification Appeals
BCIS    Bureau of Citizenship & Immigration Services
CFR     Code of Federal Regulations
CO      Certifying Officer
DOJ     United States Department of Justice
DOL     United States Department of Labor
ESA     Employment Standards Administration
ETA     Employment and Training Administration
FLC     Foreign Labor Certification
INA     Immigration and Nationality Act
LCA     Labor Condition Application
NOF     Notice of Findings
OIG     Office of Inspector General
OLRFI   Office of Labor Racketeering and Fraud Investigations
PERM    Program Electronic Review Management
RIR     Reduction In Recruitment
SWA     State Workforce Agency
TMS     Technology & Management Services, Inc.
WHD     Wage & Hour Division




                             33
                                                                          APPENDIX 4
                                   BACKGROUND

The Department’s foreign labor certification programs provide employers access to
foreign labor. The permanent, H-2A and H-2B programs are designed to ensure that
the admission of alien workers does not adversely affect the job opportunities, wages,
and working conditions of American workers or legal resident aliens. The H-1B Visa
Specialty Workers program helps employers compete in the global market by giving
them access to highly qualified individuals in specialty occupations.

The Department of Labor (DOL), Employment and Training Administration (ETA), has
responsibility for approving (certifying) applications for aliens to work in the United
States. For the permanent, H-1B, and H-2A programs, the employer must receive
DOL’s approval (certification) of the appropriate application before the employer can
petition the Bureau of Citizenship and Immigration Services (BCIS), formerly
Immigration and Naturalization Service (INS), for the appropriate visa that allows the
alien to work in the U.S. Although DOL must certify or deny the employer’s
applications for the H-2B program, ETA’s decision to certify or deny an employer’s
application is only advisory to the BCIS with the petition for the H-2B visa. BCIS can
accept or reject DOL’s decision.

Abuses of these programs may result in economic harm to American workers and
businesses, exploitation of foreign workers, and security risks associated with aliens
who are admitted to this country by fraudulent means. Hence, according to the DOL
Inspector General, Foreign Labor Certification is one of his top ten concerns.

Based on the above, the OIG, Office of Audit conducted an overview of the four
major foreign labor certification programs to identify potential vulnerabilities.




                                        34
                                                                            APPENDIX 5
                    OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

For 4 of the Department’s 6 Foreign Labor Certification Programs (Permanent,
H-1B, H-2A, and H-2B), we reviewed the purpose of each program; current program
processes; proposed changes, if any, to rules, regulations and/or process; and
previous audits or studies completed to summarize each program’s vulnerabilities.

Scope

For each of the four programs we reviewed, we determined both current and
potential future vulnerabilities, especially if proposed changes in rules and/or
regulations are a factor. We did not review the D-1 (Crewmembers) or H-1C
(Nurses in Disadvantaged Areas) certification programs.

Methodology

The overview included:

   !"gaining an understanding of each program from sources such as Federal
     Registers, the Internet, past audit reports, interviews and discussions with
     appropriate Foreign Labor Certification personnel in both the ETA national and
     regional offices, and attending a meeting among personnel from the
     Department of Justice, ETA and the OIG, Office of Labor Racketeering (OLFRI)
     and Fraud Investigations;

   !"reviewing previously issued audit reports to determine if the issues identified in
     those reports have been resolved; and

   !"reviewing written summaries of OLFRI investigative cases.

We provided a draft copy of this overview to the Employment and Training
Administration and invited comments. ETA did not provide comments.




                                         35
                          APPENDIX 5
                        SAMPLE FORMS
                                                                   Page No.

ETA Form 750 Application for Alien Employment Certification          40-44

ETA Form 790 Agricultural and Food Processing Clearance Order        44

Form I-9       Employment Verification History                       45-46

I-140          Immigration Petition for Alien Worker                 47-49

Form G-28      Notice of Entry of Appearance as Attorney or
               Representative                                        50

ETA 9035       Labor Condition Application for H-1B Nonimmigrant     51-53




                                     36
ETA Form 750, Application for Alien Employment Certification, Part A




                                   37
38
ETA Form 750, Application for Alien Employment Certification, Part B




                                39
40
41
42
43
44
45
46
47
48
49
50
